                       U.S. Environmental Protection Agency                                                    09-P-0186
                                                                                                            June 30, 2009
                       Office of Inspector General


                       At a Glance
                                                                              Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: EPA’s National Computer Center
General contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP, Found
LLP, to conduct the annual
audit of the U.S.                 Vulnerability testing of EPA’s National Computer Center (NCC) network devices
Environmental Protection          conducted in April 2009 indicated several high-risk vulnerabilities. If not
Agency’s (EPA’s) compliance       resolved, these vulnerabilities could expose EPA’s assets to unauthorized access
with the Federal Information      and potential harm to the Agency’s network.
Security Management Act
(FISMA). Williams, Adley &         What Williams, Adley & Company, LLP, Recommends
Company, LLP, conducted the
network vulnerability testing     Williams, Adley & Company, LLP, recommends that the Director of the National
of the Agency’s network           Computer Center:
devices located at EPA’s
National Computer Center in       •   Implement actions to resolve all high-risk vulnerability findings.
Research Triangle Park, North
                                  •   Update EPA’s Automated Security Self Evaluation and Remediation
Carolina.
                                      Tracking (ASSERT) system.
                                  •   Perform a technical vulnerability assessment test of NCC devices within
Background                            30 days to demonstrate and document corrective actions that have resolved
                                      the vulnerabilities.
The network vulnerability
testing was conducted to          Due to the sensitive nature of the report’s technical findings, the full report is not
identify any network risk         available to the public.
vulnerabilities and present the
results to the appropriate EPA
officials to promptly
remediate or document
planned actions to resolve the
vulnerability.



For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.
